                                     NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS


                              CLOSEOUT MEMORANDUM

Case Number: A06020004                                                     Page 1of 1



    In December 2005, a complainant told NSF a PI'S proposal1 contained statements
    on Broader Impact in the Project Summary taken from someone else's webpage.
    The complainant included the search URL. The URL the complainant provided
    linked to a document no longer available on the web. There is no cached version
    available.
    The subject submitted two proposals at the same time.2 We r a n both proposals
    through our plagiarism software. Neither proposal had any indicators of copied
    text. With no evidence of copying, we were unable to substantiate this allegation.
    Accordingly, this case is closed.




    -      The other roposal is
    P
       2
